APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the State of Minnesota in
Supreme Court
(August 6, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the State of Minnesota in
Court of Appeals
(May 6, 2019) . . . . . . . . . . . . . . . . App. 2
Appendix C Order in the State of Minnesota
District Court, County of Hennepin,
Fourth Judicial District
(February 22, 2018) . . . . . . . . . . App. 27
Appendix D Order in the State of Minnesota
District Court, County of Hennepin,
Fourth Judicial District
(February 17, 2017) . . . . . . . . . . App. 39

App. 1

APPENDIX A
STATE OF MINNESOTA
IN SUPREME COURT
A18-0646
[Filed August 6, 2019]
_________________________________
Jun Xiao,
)
Petitioner,
)
)
vs.
)
)
Dr. Raquel Rodriguez, individually )
and in her official capacity, et al., )
Respondents.
)
________________________________ )
ORDER
Based upon all the files, records, and proceedings
herein,
IT IS HEREBY ORDERED that the petition of Jun
Xiao for further review be, and the same is, denied.
Dated: August 6, 2019

BY THE COURT:
/s/
G. Barry Anderson
Associate Justice

GILDEA, C.J., took no part in the consideration or
decision of this case.

App. 2

APPENDIX B
This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-0646
[Filed May 6, 2019]
_________________________________
Jun Xiao,
)
Appellant,
)
)
vs.
)
)
Dr. Raquel Rodriguez, individually )
and in her official capacity, et al., )
Respondents.
)
________________________________ )
Filed May 6, 2019
Affirmed
Florey, Judge
Hennepin County District Court
File No. 27-CV-16-12740
Zorislav R. Leyderman, The Law Office of Zorislav R.
Leyderman, Minneapolis, Minnesota (for appellant)
Douglas R. Peterson, General Counsel, Dan Herber,
Senior Associate General Counsel, Brian J. Slovut,

App. 3
Deputy General Counsel, University of Minnesota,
Minneapolis, Minnesota (for respondents)
Considered and decided by Bjorkman, Presiding
Judge; Connolly, Judge; and Florey, Judge.
UNPUBLISHED

OPINION

FLOREY, Judge
Appellant Dr. Jun Xiao appeals the dismissal of his
contractual and constitutional claims against
respondents Dr. Raquel Rodriguez, Dr. Todd Johnson,
and Vice President Brooks Jackson. He argues that,
because the district court had subject-matter
jurisdiction over the matter, his complaint included
claims upon which relief could be granted, and
respondents were not entitled to qualified immunity,
the district court erred by dismissing his claims. We
affirm.
FACTS
Appellant Dr. Jun Xiao is a graduate of the
University of Minnesota (“UMN”) College of Pharmacy
(“the program”). He enrolled in the program in 2009,
was dismissed in 2013, and eventually completed the
program at a later date. Appellant is a Chinese
immigrant. He speaks with an accent, but passed the
UMN’s English-proficiency exam. He has a disability
that impacts his mood, energy, and ability to interact
with others.
Appellant’s initial complaint stems from academic
difficulties he experienced beginning in September of
2012, which led to his dismissal from the program. The

App. 4
following are the facts as alleged by appellant in his
complaint, and recited, as alleged facts, by the district
court.
Facts as alleged
Appellant earned a 3.1 grade-point average in the
first three years of the program. In his final year,
appellant was required to take eight courses, which
were comprised of rotations, lasting five weeks or 200
hours, at different pharmacies and supervised by
pharmacists or “preceptors.”
Appellant alleges several wrongdoings by the
program’s faculty members. He claims that, at some
point during his fourth year, he requested a course
syllabus from Dr. Rodriguez. She did not provide him
with one, or, when she did, she provided the syllabus
for a different course. Further, during his rotations,
appellant claims his preceptor, Dr. Johnson, as well as
two other preceptors, treated him in a disparate
fashion because of his disabilities, national origin, and
race.
Appellant alleges that, in August 2012, he asked Dr.
Rodriguez and another professor to move him from the
Medication History (PHAR 7126) class into the
Leadership Administration class, because that class did
not involve patient interaction. Appellant states that,
despite his request, he was enrolled in the 7126 course
anyway.
Appellant also alleges that, in August of 2012, one
of his preceptors gave him a “C” grade at his midterm
evaluation for 7126 without first consulting with his
supervising pharmacist. As a result, appellant asked

App. 5
the supervising pharmacist to give him “good
feedback.” This led, at least in part, to his ejection from
the course for attempting to interfere with the
supervising pharmacist’s evaluation of appellant’s
work. Appellant claims he was never instructed how to
interact as a pharmacist, so he should not have been
punished for not having the skills that were to be
acquired from taking the class. Appellant alleges other
wrongdoings with regard to this course, including being
placed at a hospital where he had already worked,
which, therefore, did not provide him with a “diverse
mixture of sites” for his rotations and that the course
was an elective that UMN faculty treated as required,
contrary to school policy.
Appellant claims that, on September 12, 2012, Dr.
Rodriguez informed him that a patient had complained
about him based on his “national dialect.” Appellant
alleges that he was immediately removed from his
Infusion (PHAR 7211) course and prohibited from
completing it. At the time he was removed from the
course, he had worked at the rotation location for about
three-and-a-half days. Shortly after appellant’s
removal, he requested details regarding the patient’s
complaint. Appellant was told that he was removed
from the course due to the affiliated pharmacy’s
concern that he had compromised patient safety, and
that his removal was allowed under the affiliation
agreement between the pharmacy and UMN. Appellant
requested a copy of the affiliation agreement, but never
received one.
Appellant claims that he requested further
information regarding his ejection from the two

App. 6
courses, but did not receive these documents until more
than a year after he requested them. Appellant asserts
that this delay violated UMN policy and did not afford
him due process. Further, appellant states that he paid
over $17,700 for three courses at the hospital pharmacy
to which he was assigned and never received a refund
for the 7126 course from which he was ejected or from
the two courses he was allegedly prevented from
taking. In total, appellant claims he had paid UMN
more than $163,000 for program-related tuition and
expenses at the time of his dismissal from the program.
Appellant also alleges that he was removed from
7126 and 7211 without notice and given two “F” grades
instead of “Incomplete” or “Withdrawn” grades. He
claims this allowed UMN to keep his tuition instead of
reimbursing him or reapplying the fees to other
courses. Appellant states that UMN placed him on
academic probation after he received the two failing
grades. He insists that, because it was a violation of
UMN policies to fail him, it was also a violation to place
him on probation.
Appellant claims that respondents’ actions violated
his Fourteenth Amendment right to equal protection.
Specifically, he alleges that non-disabled, Americanborn, non-minority students were given one to two
extra weeks to complete their rotations, were given
syllabi when requested, were allowed to access
patients’ medical records, were allowed to treat the
“Fagron Compounding” course as a 7211 course, and
were allowed to graduate without taking a “patient
care” elective. Appellant alleges that he was denied
these opportunities.

App. 7
Appellant alleges that, in December 2012, Dr.
Rodriguez and appellant came to a written agreement
regarding the “time and manner” in which he would
complete courses qualifying as 7211 and 7126 and
receive grades of “incomplete.” In January 2013, the
Academic Standing Committee (“ASC”) informed
appellant that, once he successfully completed the two
courses, he would be removed from academic probation.
Likewise, appellant alleges that Dr. Rodriguez told
appellant that he would be “automatically” removed
from academic probation once he passed 7126, which
was scheduled to end on March 29, 2013. Appellant
states that in February 2013, he received a grade of “A”
in his 7211 course. However, he alleges the course was
registered as 7213 in his enrollment, while it was
registered as 7211 for other students. According to
appellant, this was because all electives are the same.
Appellant successfully passed 7126 on March 29, 2013.
In April 2013, appellant began Acute Care I (PHAR
7122) with Dr. Johnson as the preceptor. Appellant
alleges that, on April 25, 2013, Dr. Johnson, in the
presence of another student, held up appellant’s
marked exam, called him “one of the worst students he
has had in 35 or 36 years of teaching,” and accused
appellant of unprofessional behavior. Additionally,
Dr. Johnson, in front of others, allegedly accused
appellant of cheating, forced appellant to acknowledge
the accusation, and threatened to send appellant to a
separate “small room.” Appellant alleges that
Dr. Johnson’s behavior violated UMN’s policy to “be
respectful, fair, and civil” and also discriminated
against him because of his disability. Appellant
reported Dr. Johnson directly to UMN, rather than

App. 8
reporting the incident to Dr. Johnson’s supervisor,
Dr. Rodriquez. Appellant claims that his decision to
bypass Dr. Rodriguez resulted in her initiating
numerous retaliations against him.
Soon after these events, Dr. Johnson gave appellant
a “D” for PHAR 7122. Appellant requested to be moved
from Dr. Johnson’s rotation. Dr. Rodriguez denied
appellant’s request and told him that if he did not
remain with Dr. Johnson, appellant would need to go
before the ASC and that Dr. Rodriguez would propose
appellant’s dismissal from the program. The next week,
Dr. Johnson allegedly sent appellant two text messages
instructing appellant to move out of his apartment and
contacted appellant’s landlord to discuss the same
topic. He then allegedly went to appellant’s apartment,
confronted appellant in a parking lot, and ordered him
to move out.
Appellant alleges that Dr. Rodriquez made false
statements that adversely affected his enrollment in
the program. He claims that, in May 2013,
Dr. Rodriguez falsely informed UMN that appellant
had “never repeated 7211” because “the three elective
courses are treated substantially different.” He alleges
that Dr. Rodriquez’s statement caused him to be kept
on probation past March 29, 2013. In June 2013,
appellant was allowed to briefly address the ASC
regarding his potential dismissal from the program. At
the hearing, and outside the presence of appellant,
Dr. Rodriguez allegedly proposed that appellant be
dismissed from the program. Consequently, according
to appellant, he was dismissed from the program in
June 2013.

App. 9
On July 22, 2013, appellant filed his first internal
complaint with UMN. Appellant alleged respondents
violated university rules, policies, and established
practices by removing him from 7211 and 7126, issuing
non-passing grades, improperly continuing his
probation beyond March 29, 2013, and dismissing him
from the pharmacy program. UMN upheld Dr.
Rodriguez’s finding that appellant never repeated the
failed course.
On November 4, 2013, appellant requested extra
time for completing rotations as a disability
accommodation. His request was denied, and no UMN
employees engaged appellant in “the interactive
process.”
On April 30, 2014, appellant filed a second internal
complaint with UMN. He asserted that, because UMN
violated its own rules, policies, and established
practices, particularly in regard to its anti-racial
discrimination measures, he was entitled to a tuition
refund, monetary reimbursements, and an apology
from respondents.
In September 2014, UMN held a nine-hour
evidentiary hearing to address appellant’s allegations.
On October 8, 2014, the ASC found that UMN and its
employees did not violate any rules, policies, or
established practice in relation to appellant’s
enrollment or education. Appellant appealed the
decision to UMN Vice President Brooks Jackson. Vice
President Jackson reviewed the complaints and denied
appellant’s appeal.

App. 10
District court procedural history
In August 2016, appellant filed a complaint in
district court based on the same allegations presented
to UMN. Respondents filed a motion to dismiss for
failure to state a claim and lack of subject-matter
jurisdiction. See Minn. R. Civ. P. 12.02(a), (e). The
district court dismissed all claims except appellant’s
claim against respondents Rodriguez and Johnson for
retaliation.
In November 2017, respondents filed a motion for
summary judgement on the remaining retaliation
claims. After a hearing, the district court granted
respondents’ summary-judgment motion, thus
dismissing appellant’s last remaining claim. Appellant
appeals from the final judgment.
DECISION
I.

The district court did not err in dismissing,
for lack of subject-matter jurisdiction,
appellant’s state-law claims for breach of
contract, unjust enrichment, and
promissory estoppel.

Subject-matter jurisdiction refers to a court’s
authority to consider an action or issue a ruling that
will decide the issues raised by the pleadings. See
Cochrane v. Tudor Oaks Condo. Project, 529 N.W.2d
429, 432 (Minn. App. 1995), review denied (Minn.
May 31, 1995). Without subject-matter jurisdiction, a
court must dismiss a claim. See Tischer v. Hous. &
Redev. Auth. of Cambridge, 693 N.W.2d 426, 427
(Minn. 2005) (holding that the district court erred by
failing to dismiss a claim for lack of subject-matter

App. 11
jurisdiction). Whether subject-matter jurisdiction exists
presents an issue of law, which we review de novo. Id.
at 428.
The district court concluded that it did not have
subject-matter jurisdiction over appellant’s state-law
claims for breach of contract, unjust enrichment, and
promissory estoppel. It ruled that the law required
appellant to pursue these claims through a writ of
certiorari to the court of appeals. It reasoned that
appellant’s claims implicated review of an
administrative body’s quasi-judicial decisions, which
necessitated a deferential test, not a de novo review.
The district court determined that the two complaints
appellant brought before UMN contained the same
claims that he brought in his complaint filed in district
court. We conclude that appellant’s failure to appeal
UMN’s decision via a writ of certiorari is fatal to the
state-law claims in the matter before us.
Absent “an adequate method of review or legal
remedy, judicial review of the quasi-judicial decisions
of administrative bodies, if available, must be invoked
by writ of certiorari.” Dietz v. Dodge County, 487
N.W.2d 237, 239 (Minn. 1992). “Because it mandates
nonintrusive and expedient judicial review, certiorari
is compatible with the maintenance of fundamental
separation of power principles, and thus is a
particularly appropriate method of limiting and
coordinating judicial review of the quasi-judicial
decisions of executive bodies.” Id.
“If a writ of certiorari . . . is the exclusive method by
which to challenge an [administrative body’s] decision,
then the district court lacks subject-matter jurisdiction

App. 12
to hear the case.” County. of Washington v. City of Oak
Park Heights, 818 N.W.2d 533, 538 (Minn. 2012)
(citation omitted); see Shaw v. Bd. of Regents of Univ.
of Minn., 594 N.W.2d 187, 190-92 (Minn. App. 1999)
(holding that “[a] breach of contract claim based on a
termination decision by the University of Minnesota is
reviewed only on a writ of certiorari” and affirming the
district court’s determination that it lacked subjectmatter jurisdiction to review the claim), review denied
(Minn. July 28, 1999); see also Maye v. Univ. of Minn.,
615 N.W.2d 383, 385-87 (Minn. App. 2000) (affirming
a district court’s determination that it lacked subjectmatter jurisdiction to review a breach-of-contract claim
based on the university’s failure to promote the
appellant). A party must apply to the court of appeals
for a writ of certiorari “within 60 days after the party
applying for such writ shall have received due notice of
the proceeding sought to be reviewed thereby.” Minn.
Stat. § 606.01 (2018). And, when a litigant aggrieved by
a quasi-judicial decision fails to obtain a timely writ of
certiorari, that litigant is not entitled to review on the
merits of the challenge by way of some other remedy.
See in re Occupational License of Haymes, 444 N.W.2d
257, 259 (Minn. 1989) (reversing review on the merits
of quasi-judicial decision because of failure to timely
petition for writ of certiorari).
Appellant argues that, contrary to the district
court’s ruling, the court had subject-matter jurisdiction
over the matter. He contends that the court had
jurisdiction for several reasons: the complaint filed in
district court alleged facts sufficient to establish a
claim for breach of educational contract, the
contractual violations were not substantially related to

App. 13
his dismissal from the program, the district court’s
review of the claims would not necessarily require a
determination as to whether dismissal was
appropriate, and that such a review would not result in
a substantial intrusion or challenge to UMN’s internal
decision-making process.
We are not persuaded. The district court properly
dismissed appellant’s state-law claims for lack of
subject-matter jurisdiction. The allegations made by
appellant in his district court complaint, although he
attempts to distinguish them, are substantially the
same as the claims adjudicated by UMN.
Further, UMN’s decision-making process was quasijudicial in nature and, thus, necessitated certiorari
review to maintain separation of powers principles. See
id. Quasi-judicial actions include the following:
“(1) investigation into a disputed claim and weighing of
evidentiary facts; (2) application of those facts to a
prescribed standard; and (3) a binding decision
regarding the disputed claim.” Minn. Ctr. for Env’t
Advocacy v. Metro. Council, 587 N.W.2d 838, 842
(Minn. 1999). Appellant’s UMN complaints highlighted
factual allegations, disputed by respondents, which
were then reviewed and weighed by an administrative
panel. Appellant was represented by counsel, presented
evidence, and cross-examined witnesses. The
prescribed standard to which the facts were applied at
the hearing were the rules, policies, and established
practices of the program. The panel issued a decision,
and appellant sought review. Vice President Jackson
then reviewed the matter and issued a final, binding
decision denying appellant’s appeal.

App. 14
Appellant’s assertion that the district court’s review
of his claims would not result in an intrusion upon
UMN’s decision is without merit. The district court is
not equipped to review the types of academic decisions
appellant asserts could be reviewed, such as the
program’s choice of rotation locations, the tasks
appellant was assigned on rotation, appellant’s access
to patients’ medical records, or whether courses
satisfied graduation requirements. See Zinter v. Univ.
of Minn., 799 N.W.2d 243, 246 (Minn. App. 2011)
(concluding courts are not equipped to analyze the
goals of a UMN degree program), review denied (Minn.
Aug. 16, 2011).
Appellant further argues that the district court had
subject-matter jurisdiction over his claims because it
could grant certain monetary damages that UMN does
not have the authority to award. This distinction does
not extinguish the policy concern that a district court
should not be conducting a de novo review of issues
already adjudicated before an administrative body
through a quasi-judicial proceeding. We, therefore,
discern no error by the district court in dismissing
appellant’s state-law claims for lack of subject-matter
jurisdiction.

App. 15
II.

The district court did not err in dismissing
appellant’s 42 U.S.C. § 1983 Fourteenth
Amendment equal-protection claims for
failure to state a claim upon which relief
could be granted.

The United States and the Minnesota Constitutions
guarantee citizens equal protection of the laws. U.S.
Const. amend. XIV, § 1; Minn. Const. art. I, § 2. 42
U.S.C. § 1983 (2018) provides a private right of action
for violations of constitutional provisions, including the
Equal Protection Clause, and a party bringing a section
1983 claim may seek monetary damages for violations
of their constitutional rights. An equal-protection
challenge requires an initial showing by the plaintiff
that “similarly situated persons have been treated
differently.” State v. Cox, 798 N.W.2d 517, 521 (Minn.
2011) (quotation omitted). In determining whether two
groups are similarly situated, we focus on “whether
they are alike in all relevant respects.” Id. at 522.
Appellate courts routinely reject equal-protection
claims of parties who fail to establish that they are
similarly situated to those from whom they contend to
be treated differently. Schatz v. Interfaith Care Ctr.,
811 N.W.2d 643, 656 (Minn. 2012).
A complaint must “contain a short and plain
statement of the claim showing that the pleader is
entitled to relief and a demand for judgment for the
relief sought.” Minn. R. Civ. P. 8.01. A party may move
to dismiss a complaint for failure to state a claim upon
which relief can be granted. See Minn. R. Civ.
P. 12.02(e). “We review de novo whether a complaint
sets forth a legally sufficient claim for relief.” Walsh v.

App. 16
U.S. Bank, N.A., 851 N.W.2d 598, 606 (Minn. 2014).
We must accept the allegations contained in the
complaint as true; whether the plaintiff can prove the
alleged facts is immaterial to our analysis. See Elzie v.
Comm’r of Pub. Safety, 298 N.W.2d 29, 32 (Minn.
1980). We will not uphold a dismissal “if it is possible
on any evidence which might be produced, consistent
with the pleader’s theory, to grant the relief
demanded.” Martens v. Minn. Mining & Mfg. Co., 616
N.W.2d 732, 739-40 (Minn. 2000) (quotation omitted).
The district court concluded that there was an
insufficient basis for an equal-protection claim. The
district court ruled that appellant had not alleged a
direct motive of discrimination, failed to identify
similarly situated persons who received
accommodations or passing grades that he did not
receive, and did not provide precise descriptions of facts
explaining how non-disabled and non-minority
students were treated more favorably. The district
court’s conclusion was not error.
Appellant disputes that he failed to allege sufficient
facts to sustain his equal-protection claim. Appellant
points to allegations from his complaint of Caucasian
students being treated favorably. For example, the
complaint alleged that appellant was not given extra
training on patient interaction when compared to other
students, was denied access to patient profiles while
white students’ access was not similarly barred, was
not given a course schedule while white students
received those materials, and was required to take a
“patient care” elective while other students were not.
Appellant’s argument, however, does not adequately

App. 17
address the district court’s conclusion that the
allegations are too vague and do not identify how the
students in question were similarly situated to himself.
Our review of the complaint is consistent with the
district court’s ruling. Appellant failed to sufficiently
allege that other students treated more favorably were
similarly situated to appellant and alike in all relevant
ways. Therefore, the district court did not err in
dismissing appellant’s equal-protection claims
pursuant to Minn. R. Civ. P. 12.02(e).
III.

The district court did not err in dismissing
appellant’s 42 U.S.C. § 1983 Fourteenth
Amendment due-process claims for failure
to state a claim upon which relief can be
granted.

Appellant argues the district court’s dismissal of his
due-process claims was error because his complaint
sufficiently alleged that he was deprived of both a
property and liberty interest. The state cannot “deprive
any person of life, liberty, or property, without due
process of law.” U.S. Const. amend. XIV, § 1; see also
Minn. Const. art. I, § 7. However, the United States
Supreme Court has held that “far less stringent
procedural requirements” are necessary “in the case of
an academic dismissal.” Bd. Of Curators of Univ. of Mo.
v. Horowitz, 435 U.S. 78, 86, 98 S. Ct. 948, 953 (1978).
The district court determined that appellant failed
to plead facts sufficient to support a section 1983 dueprocess claim because he was afforded more than the
prescribed constitutional procedures require. We agree.

App. 18
A. Property interest
Appellant concedes that, to show he was deprived of
a property interest, he must establish that UMN failed
to provide him with written notice and an opportunity
to be heard prior to taking adverse action against him.
However, he contends that he was deprived of a
property interest because he did not receive notice of
his removal from two courses or notice of receiving
failing grades. Appellant cites to no authority that
qualifies these actions as depriving him of a property
interest and consequently deserving of due-process
protections.
Regarding his dismissal, appellant was provided
with notice, was represented by counsel, was allowed to
present evidence and cross-examine witnesses, and was
allowed a nine-hour hearing prior to being dismissed
from the program. This was sufficient due process to
protect appellant’s constitutional rights. Therefore, the
district court did not err in ruling that appellant failed
to state a claim upon which relief can be granted.
B. Liberty interest
Appellant cites Greenhill v. Bailey, 519 F.2d 5 (8th
Cir. 1975) to support the proposition that students
attending public universities have a protected liberty
interest in their good name and reputation—both of
which, according to appellant, he was deprived. He
alleges that both Dr. Johnson and Dr. Rodriguez made
several false statements about him. Specifically, he
alleges that Dr. Johnson falsely accused him of
cheating and taking a patient profile without
permission. He alleges that Dr. Rodriguez falsely

App. 19
stated that he had “never repeated 7211,” that failed
rotations were placed “at the end of all scheduled
rotation[s],” and that appellant needed to complete a
“patient care” elective in order to be removed from
academic probation.
As an initial matter, Greenhill is not controlling as
it predates Horowitz. Additionally, Greenhill’s holding
does not support appellant’s due-process claim. 519
F.2d at 8. The Greenhill court held that the plaintiff,
who had been dismissed from medical school, without
the opportunity to be heard, was entitled to an
administrative hearing based on the broad and
damaging dissemination of information denigrating his
academic ability. Id. at 7-8. The Greenhill court
cautioned, however, that most academic dismissals do
not require more than “an informal give-and-take,”
between the student and the administration, and that
“trial-type procedures” should be reserved for only
particular circumstances. Id. at 8-9. Appellant’s
circumstances are distinguishable from Greenhill, and,
further, the amount of due process appellant received,
including a lengthy evidentiary hearing before an
administrative panel, was sufficient under Horowitz.
See 435 U.S. at 86, 98 S. Ct. at 953; 519 F.2d at 8-9.
We, therefore, conclude that the district court did not
err in dismissing, pursuant to Minn. R. Civ. P. 12.02(e),
appellant’s due-process claims.
IV.

The district court did not err in dismissing
appellant’s 42 U.S.C. § 1983 First
Amendment retaliation claims.

Appellant argues that the district court erred in
dismissing his retaliation claims. To successfully

App. 20
establish a prima facie case of retaliation under the
First Amendment, plaintiffs must demonstrate that
(1) they engaged in statutorily protected conduct;
(2) the defendant committed an adverse action; and
(3) a causal connection exists between the two.
Hubbard v. United Press Int’l, Inc., 330 N.W.2d 428,
444 (Minn. 1983).
A. Vice President Jackson
Appellant argues that Vice President Jackson’s
denial of his administrative appeal was retaliatory in
nature. Specifically, appellant alleged, in his district
court complaint, that Vice President Jackson issued his
decision on appellant’s appeal past the 30-day deadline
provided by UMN policies and that this delay
demonstrated a conspiracy to prevent appellant’s
complaint from reaching the next level of the UMN
administrative process.
Rejecting appellant’s allegations, the district court
determined that he had not pleaded sufficient facts to
implicate Vice President Jackson in a retaliation claim.
The district court’s rationale was that there were
insufficient allegations that Vice President Jackson
acted adversely toward appellant, beyond denying his
appeal on its merits. The district court reasoned that,
if such allegations were enough to support a retaliation
claim, then any student who appealed UMN decisions
would have a retaliation claim. Because appellant
failed to allege that Vice President’s adverse action was
malicious in nature, or outside the purview of his
duties as vice president, the district court concluded
that qualified immunity was a bar to appellant’s claim
against him. We agree.

App. 21
Qualified immunity is intended to shield, in certain
circumstances, government officials from liability and
the burdens of litigating a section 1983 claim for
damages. Robbins v. Becker, 794 F.3d 988, 993 (8th Cir.
2015). “State officials are entitled to qualified
immunity when ‘their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Elec. Fetus
Co., Inc., v. City of Duluth, 547 N.W.2d 448, 452 (Minn.
App. 1996) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818, 102 S. Ct. 2727, 2738 (1982)), review denied (Minn.
Aug. 6, 1996). A clearly established right is one that is
“sufficiently clear [so] that a reasonable official would
understand that what he is doing violates that right.”
Anderson v. Creighton, 483 U.S. 635, 640, 107 S. Ct.
3034, 3039 (1987). We review the applicability of
immunity de novo. Kariniemi v. City of Rockford, 882
N.W.2d 593, 599 (Minn. 2016).
The “allegations in a complaint may provide the
basis for denying an immunity defense.” Gleason v.
Metro. Council Transit Operations, 563 N.W.2d 309,
318 (Minn. App. 1997) (emphasis in original), aff’d in
part, 582 N.W.2d 216 (Minn. 1998). Cases implicating
immunity, however, are subject to a somewhat
heightened pleading standard. See Elwood v. Rice Cty.,
423 N.W.2d 671, 676 (Minn. 1988). That is, plaintiffs
“should supply in their complaints or other supporting
materials greater factual specificity and particularity
than is usually required.” Id. (quotation omitted). And,
immunity should be determined “at the earliest
possible stage to shield officers from disruptive effects
of broad-ranging discovery and effects of litigation.” Id.
at 675.

App. 22
On appeal, we “need not consider the correctness of
the plaintiff’s version of the facts, nor even determine
whether the plaintiff’s allegations actually state a
claim.” Mitchell v. Forsyth, 472 U.S. 511, 528, 105 S.
Ct. 2806, 2816 (1985). Rather, we must merely decide
“whether the legal norms allegedly violated by the
defendant were clearly established at the time of the
challenged actions.” Id.
Taking appellant’s allegations as true, Vice
President Jackson’s alleged delay in the decisionmaking process does not imply impropriety on a level
that would implicate him in retaliation against
appellant or bar him from qualified immunity. The
relevant portions of appellant’s complaint do not raise
these theories of impropriety, and the record does not
support such an implication. As such, the district court
did not err in dismissing appellant’s retaliation claim
against Vice President Jackson.
B. Dr. Johnson and Dr. Rodriguez
Appellant also argues that the conduct of
Dr. Johnson and Dr. Rodriquez was retaliatory in
nature. In his district court complaint, appellant
alleged that respondents retaliated against him after
he took the protected action of filing a complaint
against Dr. Johnson without first bringing the matter
to Dr. Rodriguez. Appellant claims that respondents’
retaliatory actions included issuing him poor grades,
advocating for his dismissal from the program,
accusing him of cheating, ridiculing him in front of a
peer, and attempting to force him to move out of his
apartment.

App. 23
The district court concluded that appellant had
alleged enough facts that, if true, could potentially
support a retaliation claim against Dr. Johnson and
Dr. Rodriguez. Accordingly, the court denied their
motion to dismiss and allowed the parties to proceed
with discovery. Approximately one year later, however,
the district court concluded that, “[w]hile some of
[respondents’] conduct was questionable, there [were]
no pliable facts establishing a retaliatory animus.”
Thus, the district court granted respondents’ motion for
summary judgment.
Summary judgment is appropriate when “there is
no genuine issue as to any material fact and the
movant is entitled to judgment as a matter of law.”
Minn. R. Civ. P. 56.01. No genuine issue for trial exists
“[w]here the record taken as a whole could not lead a
rational trier of fact to find for the nonmoving party.”
DLH, Inc. v. Russ, 566 N.W.2d 60, 69 (Minn. 1997)
(alteration in original) (quoting Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 587, 106 S. Ct.
1348, 1356 (1986)). A party moving for summary
judgment may support the motion by “citing to
particular parts of materials in the record, including
depositions, documents, electronically stored
information, affidavits, stipulations (including those
made for purposes of the motion only), admissions,
interrogatory answers, or other materials.” Minn. R.
Civ. P. 56.03(a)(1).
“The test for qualified immunity at the summary
judgment stage is an objective one.” Elec. Fetus, 547
N.W.2d at 452 (quotation omitted). “The district court’s
function on a motion for summary judgment is not to

App. 24
decide issues of fact, but solely to determine whether
genuine factual issues exist.” DLH, 566 N.W.2d at 70.
As such, “a court deciding a summary-judgment motion
must not make factual findings or credibility
determinations or otherwise weigh evidence relevant to
disputed facts.” Geist-Miller v. Mitchell, 783 N.W.2d
197, 201 (Minn. App. 2010).
On appeal, we review de novo a district court’s
summary-judgment decision. Riverview Muir Doran,
LLC v. JADT Dev. Grp., LLC, 790 N.W.2d 167, 170
(Minn. 2010). “In doing so, we determine whether the
district court properly applied the law and whether
there are genuine issues of material fact that preclude
summary judgment.” Id. We “must view the evidence in
the light most favorable to the party against whom
judgment was granted.” Fabio v. Bellomo, 504 N.W.2d
758, 761 (Minn. 1993).
The district court properly granted respondents’
summary-judgment motion, concluding that there were
no genuine issues of material fact and respondents
were entitled to qualified-immunity protection. In
support of its decision, the court determined that
(1) appellant was unable to demonstrate that
respondents deprived him of a constitutional right and
(2) the constitutional right was not clearly established
at the time of the alleged violation. See Elec. Fetus, 547
N.W.2d at 452. The district court reasoned that, while
appellant made allegations of “questionable conduct” by
respondents, the alleged actions took place either
before appellant’s protected activity or the conduct was
not of a type and quality definitive of a retaliatory
animus. We agree.

App. 25
Appellant filed with UMN an internal complaint
against Dr. Johnson on April 26, 2013. The record
shows that the complaint was not discussed with
Dr. Johnson until on or about April 30, 2013, when
Dr. Rodriquez relayed the allegations to him. Viewing
the facts in the light most favorable to the nonmoving
party, Dr. Johnson’s alleged conduct of accusing
appellant of cheating and ridiculing him in front of
peers would have occurred before Dr. Johnson was
made aware of appellant’s complaint. Therefore,
appellant’s evidence of these claimed adverse events do
not show actions that were taken during the pendency
of his protected actions.
Dr. Johnson’s issuance of poor grades to appellant
do not support a retaliation claim either. Appellant
received a grade of “D” from Dr. Johnson on May 3,
2013, the day grades were due, and there is no evidence
in the record that this grade was influenced by
appellant’s complaint. Appellant’s own allegation that
Dr. Johnson considered him to be “one of his worst
students” indicates that appellant was, in fact,
struggling academically before his complaint was filed.
Nor do appellant’s allegations that Dr. Johnson
contacted appellant’s landlord and spoke
condescendingly to appellant in a parking lot support
a retaliation claim, as neither action would chill a
person of ordinary firmness from continuing to engage
in a protected activity. See Bernini v. City of St. Paul,
665 F.3d 997, 1007 (8th Cir. 2012).
Similarly,
appellant’s
evidence
against
Dr. Rodriquez does not support a retaliation claim.
While Dr. Rodriguez was present for the hearing before

App. 26
the ASC, the record does not support the claim that she
advocated for appellant’s dismissal.
Additionally, appellant’s “right to speak out” had
not been “clearly established” at the time of the alleged
retaliation. See White v. Pauly, 137 S. Ct. 548, 552
(2017) (reiterating the “longstanding principle that
clearly established law should not be defined at a high
level of generality”) (quotations omitted). To show that
a right is “clearly established,” a plaintiff must identify
a case where state officials, acting under similar
circumstances, were held to have violated the right at
issue. See id. at 552. Appellant has not met this
burden. Instead of identifying a case in which state
officials, acting under similar circumstances, were held
to violate First Amendment rights through retaliation,
he points to a Fourth Amendment case regarding an
arrest and a claim regarding excessive force and
retaliation in the prison system.
In sum, the district court did not err in granting
summary judgment on appellant’s First Amendment
retaliation claims against Dr. Johnson and
Dr. Rodriquez. There were no genuine issues of
material fact, and both respondents were entitled to
qualified-immunity protection.
Affirmed.

App. 27

APPENDIX C
STATE OF MINNESOTA
DISTRICT COURT
COUNTY OF HENNEPIN
FOURTH JUDICIAL DISTRICT
Judge Michael K. Browne
Case Type: Civil
Court File No.: 27-CV-16-12740
[Filed February 22, 2018]
______________________________________
Jun Xiao,
)
Plaintiff,
)
)
v.
)
)
Dr. Raquel Rodriguez, individually and )
in her official capacity, and Todd
)
Johnson, individually and in his
)
official capacity,
)
Defendants.
)
______________________________________ )
ORDER
APPEARANCES
The above-captioned matter came before the
Honorable Michael K. Browne, Judge of District Court,
on Defendant’s Motion for Summary Judgment on
December 14, 2017. The hearing was held at the
Hennepin County Government Center, located at 300

App. 28
South Sixth Street in Minneapolis, Minnesota, in
courtroom 953. Jeffery Shiek, Esq., represented
Plaintiff. Brian J. Slovut, Esq., represented
Defendants.
PROCEDURAL HISTORY
On August 24, 2016, Jun Xiao (Plaintiff) filed his
Complaint. Dr. Raquel Rodriguez and Todd Johnson
(Defendants) filed a Motion to Dismiss on
September 29, 2016. On November 21, 2016, the Court
heard Defendants’ Motion to Dismiss. On February 17,
2017, the Court granted, in part, and denied, in part,
the Motion to Dismiss, which resulted in action against
Vice President Jackson being dismissed. The parties
stipulated to the dismissal of the Regents of the
University of Minnesota.
The only claim remaining in this action was
Plaintiff’s § 1983 claim against Defendants Rodriguez
and Johnson for retaliation. Defendants then filed their
Motion for Summary Judgment on November 16, 2017,
arguments were heard on December 14, 2017 and the
Court took the issue under advisement and now issues
this order to address the outstanding motion.
FACTUAL BASIS
This Court, having heard all arguments from
counsel, and reviewed all relevant documents and
memoranda, determined the following:
1.

Plaintiff emigrated from China to the United
States when he was 35 years old. He
possesses a Ph.D. from the Institute of
Biophysics, Chinese Academy of Sciences and

App. 29
he completed some measure of his
postdoctoral training at the Massachusetts
Institute of Technology. Plaintiff was
accepted in to the Doctor of Pharmacy
program at the University of Minnesota. He
took perquisite classes for the Doctor of
Pharmacy program at the St. Louis
Community College (Missouri), Schoolcraft
College (Michigan) and Macomb Community
College (Michigan) to prepare for enrollment.
2.

Plaintiff began classes at the University of
Minnesota on September 1, 2009. In his
fourth year Plaintiff began his Advanced
Pharmacy Practice Experiences (APPE)
course work. The curriculum included Acute
Care, Ambulatory Care, Patient Care, and
Community Practice. In addition, there were
three elective courses (12 credits) that were
also required. Students are supervised in
their rotations by preceptors (pharmacists).

3.

On September 12, 2012, a patient complained
about Plaintiff. In the investigation that
followed it was concluded the complaint was
valid and that Plaintiff lacked the requisite
level of competency to complete the program.

4.

On September 24, 2012, Plaintiff was
informed he failed the Home Infusion APPE
and that he had to repeat the class. It was
also established that he had accrued six
credits of D and F level work. Students who
receive eight or more credits of D/F work are
placed on academic probation.

App. 30
5.

Plaintiff was referred to the Academic
Standing Committee (ASC), the goal of which
is to monitor student performance and to
help garner improvement. The ASC asked
Plaintiff to meet with Dr. Rodriguez, the
Director of Experimental Education
Programs, at the University of Minnesota
College of Pharmacy, to better identify ways
to improve his performance.

6.

Dr. Rodriguez started seeing Plaintiff on a
regular basis starting in November of 2012.
On November 26, 2012, at Dr. Rodriguez’s
invitation, a counselor from Disability
Services (Ms. Blacklock) attended one of
their sessions.

7.

On February 21, 2013, Plaintiff alleges Dr.
Rodriguez indicated that if he completed his
rotation at Walgreens he would be removed
from academic probation.

8.

On March 29, 2013, Plaintiff successfully
completed his rotation at Walgreens.

9.

In April of 2013, Plaintiff was removed from
the Acute Care APPE which he attended at
Lake Region Healthcare in Fergus Falls, MN.
Dr. Johnson was one of Plaintiff’s preceptors
at the Fergus Falls location. Ultimately,
Plaintiff received a D grade for the work he
performed at that location.

10.

On April 25, 2013, Dr. Johnson met with
Plaintiff and another student. Allegedly, Dr.
Johnson called Plaintiff one of the worst

App. 31
students he has had in 35 or 36 years of
teaching, disclosed Plaintiff’s private
academic information, showed Plaintiff’s
marked exam, and accused Plaintiff of
unprofessionalism, all in the presence of the
other student.
11.

On June 3, 2013, Dr. Rodriguez sat in on the
ASC meeting which was asked to determine
whether to dismiss Plaintiff. While she was
not a member of the ASC, and did not take
part in the actual deliberations, she did
inform that body of her opinion Plaintiff
should be dismissed.

12.

On June 6, 2013, the ASC dismissed Plaintiff
from the pharmacy program.

13.

On June 27, 2013, Ms. Blacklock received
documentation that established Plaintiff had
a documented disability. This was the first
documented proof of Plaintiff’s condition.

14.

On July 22, 2013, Plaintiff filed his first
complaint with the University of Minnesota
alleging the violation of University rules,
policies, and established practices in regard
to his removal from two courses, the issuance
of non-passing grades, the improper
continuation of probation beyond March 29,
2013, and his dismissal from the pharmacy
program.

15.

On April 30, 2014, Plaintiff filed a second
complaint with the University of Minnesota
asserting that because the University

App. 32
violated its own rules, policies, and,
established practices, particularly in regard
to its anti-racial discrimination measures, he
was entitled to a tuition refund and
monetary reimbursements to account for
Defendants actions. Plaintiff also asked for
an apology from Defendants.
16.

On September 12, 2014, the University of
Minnesota held an evidentiary hearing to
determine the status of Plaintiff’s
complaints.

17.

On October 8, 2014, the University of
Minnesota issued a final decision
establishing no rules, policies, or established
practices, where violated. On October 26,
2014, Plaintiff administratively appealed the
decision to the Vice President of the
University of Minnesota.

18.

After considering the Plaintiff’s position, the
Vice President of the University of Minnesota
issued a denial of Plaintiff’s appeal on
February 23, 2014.

19.

Plaintiff later entered into a contractual
agreement with the University of Minnesota
to obtain a degree within a reasonable
amount of time. A term within that
agreement required Plaintiff to repeat the
two courses he failed. Ultimately he
completed the Doctor of Pharmacy program
and was awarded the degree.

App. 33
CONCLUSIONS OF LAW
The Court recognizes Plaintiff’s need to be made
whole. For him there has been an emotional cost for
what he must feel was a long series of substantive
wrongs. Though fairness, and to some extent empathy,
are all relevant factors in the Courts rendering of a
decision, such things are not particular only to
Plaintiff. The challenge any court faces, therefore, is to
be fair and empathetic to both sides in its assessment
of whether any of Plaintiff’s injuries are recognizable
after an equal balancing of both law and fact. In the
immediate case the analysis must begin with a
painstaking consideration of whether qualified
immunity is available to Defendants. In the Court’s
previous Order, this issue was left unresolved. Today,
however, after all the facts have been clarified, this
matter is of central importance to the Court’s decision.
I.

LEGAL STANDARD
JUDGMENT.

FOR

SUMMARY

To prevail on a motion for summary judgment, the
moving party must demonstrate that “there is no
genuine issue as to any material fact and that [the
moving] party is entitled to judgment as a matter of
law.” Minn. R. Civ. P. 56.03. A genuine issue of
material fact for trial “must be established by
substantial evidence.” Murphy v. County House, Inc.,
307 Minn. 344, 351, 240 N.W.2d 507, 512, (1976). There
is no genuine issue of a material fact if “the record as a
whole could not lead a rational trier of fact to find for
the nonmoving party.” DLH, Inc. v. Russ, 566 N.W.2d
60, 69 (Minn. 1997). When a motion for summary
judgment is made and supported, the nonmoving party

App. 34
must “present specific facts showing that there is a
genuine issue for trial.” Minn. R. Civ. P. 56.05. “If the
nonmoving party does not so respond, summary
judgment, if appropriate, shall be entered.” Id.
Summary judgment on a claim is mandatory against a
party who fails to establish an essential element of that
claim, if that party has the burden of proof, because
this failure renders all other facts immaterial. Lloyd v.
In Home Health, Inc., 523 N.W.2d 2, 3 (Minn. Ct. App.
1994).
II.

DEFENDANTS ARE ENTITLED TO
QUALIFIED IMMUNITY PROTECTION.

The doctrine of qualified immunity is available to
Defendants. Section 1983 provides a civil cause of
action against any person who, under color of state law,
causes a deprivation of the rights, privileges, or
immunities secured by the Constitution and laws of the
United States. 42 U.S.C. § 1983; McRaven v. Sanders,
577 F.3d 974, 979 (8th Cir. 2009). In an individual
capacity suit under § 1983, a plaintiff seeks to impose
personal liability on a state actor for actions taken
under color of state law. Monell v. Dep’t of Soc. Servs.,
436 U.S. 658, 690 n. 55, 98 S.Ct. 2018, 56 L.Ed.2d 611
(1978).
When a state actor is sued in her individual
capacity, she can plead an affirmative defense of
qualified immunity. Serna v. Goodno, 567 F.3d 944,
952 (8th Cir.2009). One of the goals of qualified
immunity is to eliminate meritless actions against
public officials at the earliest possible stage in the
litigation. See Mitchell, 472 U.S. at 526, 105 S.Ct. at
2815; Harlow, 457 U.S. at 816–18, 102 S.Ct. at

App. 35
2737–38. Qualified immunity is a purely legal question
conceptually distinct from a defense to the merits of
plaintiffs’ claim. Id.
In the immediate case, Defendants have been sued
under §1983 in their individual capacities as members
of the University of Minnesota staff. Each are state
actors. As a result, they are entitled to qualified
immunity protection where appropriate.
III.

QUALIFIED IMMUNITY IS A BAR TO
RECOVERY IN THIS CASE.

The facts of this case are such that Defendants are
appropriately insulated from liability. Public officials
are entitled to qualified immunity from liability for
civil damages arising out of discretionary functions.
Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S.Ct.
2727, 2738 (1982). As long as a public official’s conduct
does not violate a clearly established statutory or
constitutional right, they cannot be held liable. Id. To
defeat a defense of qualified immunity, a plaintiff must
show: (1) the facts, viewed in the light most favorable
to the plaintiff, demonstrate the deprivation of a
constitutional or statutory right; and (2) the right was
clearly established at the time of the deprivation. Id. If
the answer is no, that the complained of act violated a
clearly established constitutional or statutory right, the
court should grant a defendant’s motion for summary
judgment. See Harlow, 457 U.S. at 818, 102 S.Ct. at
2738. With these principles in mind, this Court turns
to Plaintiff’s remaining §1983 retaliation claim (First
Amendment grounds) and the question of whether
Defendant’s are immune from liability.

App. 36
A. Plaintiff is unable to Demonstrate that
Defendants Deprived him of a
Constitutional Right.
Plaintiff’s remaining claim asserts that Defendants
retaliated after Plaintiff exercised his First
Amendment Rights. It is settled at a high level that the
First Amendment prohibits government officials from
retaliating against a citizen for exercising her right to
free speech. Hartman v. Moore, 547 U.S. 250, 256, 126
S. Ct. 1695 (2006). However, to establish a First
Amendment retaliation claim in a particular case, a
plaintiff must show (1) that he engaged in a protected
activity, (2) that the defendant’s actions caused an
injury to the plaintiff’s that would chill a person of
ordinary firmness from continuing to engage in the
activity, and (3) that a causal connection exists
between the retaliatory animus and the injury. Bernini
v. City of St. Paul, 665 F.3d 997, 1007 (8 th Cir. 2012).
The facts of this case do not support a favorable
finding on any of the prevailing elements. Defendant
engaged in protected activity when he filed complaint
with the University of Minnesota on July 22, 2013 and
then again on April 30, 2014. While there are
allegations of questionable conduct by Defendants
throughout the foundations of Plaintiff’s case, it is also
true their timing occurred either before the protected
activity, rendering them irrelevant, or the conduct was
not of the type and quality definitive of a retaliatory
animus, rendering them peripheral to the relevant
inquiry. The facts of this case simply do not establish
that a constitutional deprivation has occurred.

App. 37
B. The Constitutional Right was not
Clearly Established at the time of the
Alleged Violation.
The second prong of the qualified immunity analysis
requires the Court to determine whether the
constitutional right Defendants allegedly violated was
“clearly established” at the time of the challenged
conduct. To this, the Court concludes in the negative.
Whether an official eligible for qualified immunity may
be held personally liable for an allegedly unlawful
official action generally turns on the objective legal
reasonableness of the action. Anderson v. Creighton,
483 U.S. 635, 639, 107 S. Ct. 3034 (1987). The relevant
assessment must be made in light of the legal rules
that were “clearly established” at the time the official
action was taken. Id. To be clearly established, the
contours of the right must be sufficiently clear such
that every “reasonable official would have understood
that what he was doing violates that right.” Ashcroft v.
al-Kidd, 563 U.S. 731, 741, 131 S. Ct. 2074 (2011).
Existing precedent must have placed the statutory or
constitutional question beyond debate. Id. “This is not
to say that an official action is protected by qualified
immunity unless the very action in question has
previously been held unlawful; but it is to say that in
the light of pre-existing law the unlawfulness must be
apparent.” Nord v. Walsh Cnty., 757 F. 3d 734, 739 (8th
Cir. 2014).
Defendants correctly point out that Plaintiff has not
established any adverse action by Defendants which
were related to the deprivation of a clearly identifiable
constitutional right. Having reviewed the facts of this

App. 38
case, in a way that favors Plaintiff, the Court can only
conclude that qualified immunity is available to
Defendants in such a way as to shield them from
liability.
CONCLUSION
Plaintiff claims he was retaliated against for
exercising his First Amendment rights. The facts,
however, do not favor his position. While some of
Defendants’ conduct was questionable, there are no
pliable facts establishing a retaliatory animus. Because
Plaintiff is unable to tie his First Amendment conduct
to any act of constitutional deprivation, his claim fails.
Defendants are, therefore, entitled to qualified
immunity. Summary Judgment is appropriate.
ORDER
Therefore, IT IS HEREBY ORDERED that
Defendants’ Motion for Summary Judgment is
GRANTED.
LET JUDGEMENT BE ENTERED ACCORDINGLY.
BY THE COURT:
/s/
Browne, Michael
Judge of District Court
02/22/18 12:09 PM

App. 39

APPENDIX D
STATE OF MINNESOTA
DISTRICT COURT
COUNTY OF HENNEPIN
FOURTH JUDICIAL DISTRICT
Judge Michael K. Browne
Case Type: Discrimination
Court File No. 27-CV-16-12740
[Filed February 17, 2017]
______________________________________
Jun Xiao,
)
Plaintiff,
)
)
v.
)
)
Regents of the University of Minnesota, )
)
and
)
)
Dr. Raquel Rodriguez, individually
)
and in her official capacity,
)
)
and
)
)
Brooks Jackson, individually
)
and in her official capacity,
)
)
and
)
)
Todd Johnson, individually
)

App. 40
and in his official capacity,
)
Defendants.
)
______________________________________ )
The above-captioned matter came before the
Honorable Michael K. Browne, Judge of District Court,
on Defendants’ motion for a judgment on the pleadings
on November 21, 2016. The hearing was held at the
Hennepin County Government Center, located at 300
South Sixth Street in Minneapolis, Minnesota, in
courtroom 953. Mr. Thomas Priebe and Mr. Jeffrey
Schiek represented Plaintiff Xiao. Mr. Brian Slovut
represented Defendants.
ORDER
FACTUAL BASIS
(AS PRESENTED IN PLAINTIFF’S COMPLAINT)
Plaintiff is a graduate of the College of Pharmacy at
the University of Minnesota (“UMN”). During his time
at UMN, Plaintiff experienced a number of academic
difficulties. According to his complaint, Plaintiff is a
disabled individual, with disabilities that impact his
mood, energy, and ability to interact with others. He is
also a Chinese immigrant. Though he has an accent,
Plaintiff has passed the University’s exam for English
proficiency and was admitted to the program.
Plaintiff earned a 3.1 grade point average (“GPA”)
in the first three years of Pharmacy School. He then
began his Advanced Pharmacy Practice Experiences
(“APPE”) courses in his fourth year. There are
8 courses. These courses require patient care and
interaction through rotations at different pharmacies.

App. 41
Each of these rotations is 5 weeks, or 200 hours,
supervised by pharmacists or “preceptors.”
I.

ALLEGATIONS AGAINST THE UMN
A. Missing Syllabi

Plaintiff alleges that UMN only provided one
syllabus for one of the APPE courses when he enrolled
in his classes, which was for a course in which he was
not enrolled. He alleges that this was a violation of
UMN’s policy and in breach of his contract with the
University. He states that he asked Dr. Raquel
Rodriguez, Director of Experimental Education
Programs at the Pharmacy School, for the syllabi and
that she did not provide them.
Plaintiff stated that his preceptors at different
times were Mr. Todd Johnson, Ms. Christina
Sorrentino, and Ms. Beatrice Schwake, and that these
preceptors treated him in a disparate fashion because
of his disabilities, national origin, and race.
B. Ejection from PHAR 7126
Plaintiff alleges that on August 17, 2012,
Ms. Sorrentino gave him a “C” grade during a midterm
evaluation without hearing from the pharmacists with
whom he worked, stating that she would hear from
them regarding his final grade. As a result, on
August 20, Plaintiff asked the pharmacists to give him
“good feedbacks [sic].” On August 24, Plaintiff met with
co-preceptor Ms. Dana Simonson about a potential
misunderstanding regarding an assignment. He told
her that he would improve his performance. Ms.
Simonson assured him that he was doing a “really good

App. 42
job,” and confirmed the next week’s schedule. She also
asked him to come back the next day for a meeting
with Ms. Sorrentino.
The next day, Ms. Simonson and Ms. Sorrentino
met without Plaintiff. Then, Ms. Simonson met with
“the Manager” of Plaintiff’s assignment. The Manager
ejected Plaintiff from Course 7126, citing the following
reasons: (i) that Plaintiff “refused to do the assigned
topic” and (ii) he attempted to interfere with his
supervising pharmacists’ feedback.
Plaintiff alleges that he was removed from the
course just over four days before the course’s end date.
He states that the course is meant to teach students
how to interact as pharmacists, and he should not be
punished for not previously having the skills to be
gleaned from that class.
C. Medication History Class
Plaintiff also alleges that on August 17, 2012, he
asked Dr. Rodriguez and Assistant Professor Christene
Jolowsky to move him from the Medication History
class to the Leadership Administration class, as
Leadership Administration does not require interaction
with patients. Plaintiff was enrolled in Medication
History anyway. Ms. Schwake was his preceptor for
that class.
Plaintiff alleges that he was not given the proper
training to succeed in the Medication History class. He
also alleges that he should not have been enrolled to
take Medication History at the Fairview University of
Minnesota Medical Center (“UMMC”) because he had
taken other courses there and this violated the

App. 43
Pharmacy School’s policy to provide a “diverse mixture
of sites” at which students would complete their
rotations. Additionally, Plaintiff alleges that
Medication History is an elective and is treated by
UMN faculty as required, contrary to the School’s
policy.
On September 12, 2012, Ms. Schwake told Plaintiff
to go meet with Dr. Rodriguez. Plaintiff met with
Dr. Rodriguez, who informed him that a patient had
complained about him. The complaint’s basis was
Plaintiff’s “national dialect.” Plaintiff alleges that he
was immediately removed from the class and
prohibited from completing it. Before being removed
from the class, Plaintiff worked for a mere three and a
half days, interviewing 16 to 17 patients. Ms. Schwake
approved and signed the documents pertaining to these
patients, including the one who complained.
On approximately September 14, 2012, Plaintiff
requested the release of his academic record regarding
why he was removed from this course. On September
17, Mr. Peter Haeg, Director of Student Services, told
Plaintiff that he was removed because UMMC believed
that he compromised patient safety and that UMMC
had the right to do so under the Affiliation Agreement
between the UMMC and the UMN. Plaintiff asked for
a copy of the agreement but never received one.
On approximately September 25, Plaintiff met with
Dr. Rodriguez, who gave Plaintiff only select sentences
from the patient’s complaint, reiterated concerns
regarding patient safety, and gave no reasons for the
removal other than patient safety. Plaintiff told
Dr. Rodriguez that the patient got angry with Plaintiff

App. 44
because he asked the same questions the nurse and
doctor had asked, which he was required to do.
Plaintiff alleges that UMN only gave him
information about his ouster from the two classes
discussed above after more than a year from when he
requested the information. He also states that he
received daily logs about his work two years after his
request. These logs showed that Plaintiff did
satisfactory work but was nonetheless ousted from
those classes. He alleges that this violates UMN policy
and does not afford him due process.
D. Tuition Payments
Plaintiff states that he paid over $43,000 for two
semesters containing six APPE courses, averaging
$7,200 per course. He paid over $17,700 for three
courses at UMMC and did not receive a refund for the
first course from which he was removed, nor did he
receive a refund for the two later courses that he
alleges he was prohibited from taking. At the time of
his dismissal, Plaintiff alleges that he paid UMN over
$163,000.
E. Prohibition from Completing Courses
Plaintiff states that he was removed from
Medication History (7126) and Infusion (7211) without
notice and given two “F” grades instead of “Incomplete”
or “Withdrawn” grades. This negatively affected his
GPA and allowed UMN to keep his tuition fees instead
of reimbursing him or reapplying the fees to other
classes.

App. 45
F. Disparate Treatment
Plaintiff states that other non-disabled, Americanborn, non-minority students were given one to two
extra weeks to complete their rotations upon request,
while he was not.
II.

ACADEMIC PROBATION

UMN placed Plaintiff on academic probation for
receiving the two failed grades discussed above.
Plaintiff states that because it was a violation of
UMN’s policies to fail him in the first place, it was
against its policy to have put him on probation.
On December 14, 2012, Dr. Rodriguez and Plaintiff
came to a written agreement regarding the “time and
manner” in which he would complete the failed courses
and receive the grade of “I” (incomplete). On
January 16, 2013, the Academic Standing Committee
(“ASC”) informed Plaintiff that once he passed those
classes that he would be removed from academic
probation.
On February 21, 2013, Plaintiff met with
Dr. Rodriguez, who stated that he would be
“automatically” removed from probation once he passes
PHAR 7126, which began the following Monday and
ended on March 29 of that year. On February 22,
Plaintiff passed PHAR 7211 with the grade of “A.” This
course, however, was registered as PHAR 7213 in
Plaintiff’s enrollment, while it was registered as PHAR
7211 for his classmates. This is because all electives
are the same, according to Plaintiff.

App. 46
On March 29, 2013, Plaintiff successfully passed
PHAR 7126.
On April 1, Plaintiff began PHAR 7122, Acute Care
I rotation at Lake Region Hospital. Mr. Todd Johnson
was the preceptor. On April 4, Dr. Rodriguez informed
Plaintiff that she would schedule the Natural Standard
as Plaintiff’s next elective course.
On April 25, Dr. Johnson met with Plaintiff and
another student. In that meeting, Dr. Johnson called
Plaintiff one of the worst students he has had in 35 or
36 years of teaching, disclosed Plaintiff’s private
academic information in front of the other student,
showed Plaintiff’s marked exam to the other student by
holding it up to show Plaintiff’s mistakes and berate
him about them, and accused Plaintiff of
unprofessional behavior because Plaintiff accepted help
from a hospital staff person regarding the direction to
the hospital reference room.
That same month, Dr. Johnson accused Plaintiff of
cheating in a humiliating manner. Plaintiff alleges that
Dr. Johnson violated the UMN policy to “be respectful,
fair, and civil” to the students. Plaintiff complained to
UMN directly, bypassing Dr. Rodriguez, about
Dr. Johnson’s behavior. Soon after, Dr. Johnson gave
Plaintiff a “D” grade in PHAR 7122. Plaintiff then
asked to be moved from Dr. Johnson’s rotation and
Dr. Rodriguez allegedly threatened to refer him to ACS
for dismissal from the program.
Bizarrely, Plaintiff also alleges that Dr. Johnson
sent him two text messages telling Plaintiff to move out
of his apartment. Later, he allegedly went to Plaintiff’s

App. 47
apartment in person to tell him to move out of his
apartment.
Plaintiff alleges that Dr. Rodriguez informed UMN
that Plaintiff had not repeated PHAR 7211, stating
that the electives are treated differently.
On May 29, 2013, Dr. Rodriguez sat in on an ASC
meeting in which Plaintiff addressed the board. She
remained for their deliberation and argued for
Plaintiff’s dismissal. On June 6, 2013, the College
dismissed Plaintiff due to the “D” grade he received
from Dr. Johnson. Plaintiff also challenges the set-up
for Dr. Johnson’s course, as well as the grading scheme.
III.

PLAINTIFF’S COMPLAINT TO THE PHARMACY
SCHOOL AND HEARING

Plaintiff filed a complaint with UMN on July 22,
2013. The University upheld Dr. Rodriguez’s findings.
On November 4, 2013, Plaintiff requested extra time to
complete the rotations needed, as a disability
accommodation. UMN denied this request.
On April 30, 2014, Plaintiff filed a second complaint
with the University. He requested a tuition refund,
monetary reimbursements to make up for the
preceptor’s and Dr. Rodriguez’s actions, and an apology
from Dr. Johnson, among other things.
On September 12, 2014, UMN’s Pharmacy School
held a hearing on Plaintiff’s two complaints. Plaintiff
challenges the neutrality of the panel, as they are all
professors at the Pharmacy School. Plaintiff alleges
that Dr. Rodriguez and the preceptors made a number
of false allegations and denied their statements before

App. 48
the panel. The hearing was a nine-hour evidentiary
hearing.
On October 8, 2014, the hearing panel issued a
decision finding that UMN and its employees did not
violate any rules, policies, or established practice in
relation to Plaintiff’s enrollment or education. On
October 26, 2014, Plaintiff appealed the hearing panel’s
decision to the Vice President. The Vice President
issued a denial of Plaintiff’s appeal on February 23,
2015, denying Plaintiff’s ability to have the matter
heard on the University-wide level. Plaintiff alleges
that UMN violated its own practice in doing denying
that appeal.
Plaintiff states that the actions of the UMN and its
employees were discriminatory and in retaliation for
Plaintiff’s good faith requests for accommodations and
reports regarding discrimination against him.
The proceedings at UMN were quasi-judicial,
evidentiary proceedings. Plaintiff was represented by
counsel, called witnesses, and submitted exhibits. The
decision of the Vice President was final and binding.
CONCLUSIONS OF LAW
I.

LEGAL STANDARD FOR MOTION

A pleading may be dismissed under Minn. R. Civ.
P 12.02(e) if it “fail[s] to state a claim upon which relief
can be granted.” See Elzie v. Comm’r of Pub. Safety, 298
N.W.2d 29, 32 (Minn. 1980) (quoting Royal Realty Co.
v. Levin, 69 N.W.2d 667, 670 (Minn. 1955)). The Court
must take the facts alleged in the complaint as true
and draw all inferences in favor of the nonmoving

App. 49
party. Burt v. Rackner, Inc., 882 N.W.2d 627, 629
(Minn. Ct. App. 2016), review granted (Sept. 20, 2016).
A pleading will be dismissed “if it appears to a
certainty that no facts, which could be introduced
consistent with the pleading, exist which would support
granting the relief demanded.” Bahr v. Capella Univ.,
788 N.W.2d 76, 80 (Minn. 2010) (quoting N. States
Power Co. v. Franklin, 265 Minn. 391, 395, 122 N.W.2d
26, 29 (1963)).
II.

PLAINTIFF’S NON-STATUTORY CLAIMS FAIL
AS A MATTER OF LAW.

It is well-established that a writ of certiorari to the
Court of Appeals is the appropriate method of
reviewing an administrative body’s quasi-judicial
decisions. Shaw v. Board of Regents of University of
Minnesota, 594 N.W.2d 187, 190 (Minn. 1999) (citing
Dietz v. Dodge County, 487 N.W.2d 237, 239 (Minn.
1992). When an agency acts in a quasi-judicial capacity,
appellate courts review its decision using a deferential
test. In re Expulsion of N.Y.B., 750 N.W.2d 318, 324
(Minn. Ct. App. 2008) (citing Indep. Sch. Dist. No. 192
v. Minn. Dep’t of Educ., 742 N.W.2d 713, 719 (Minn. Ct.
App. 2007)). This standard is only used when the
agency’s quasi-judicial process is analogous to a trial
court’s. Id. This is found when the proceedings include
(1) receiving and weighing evidence, (2) making factual
findings, and (3) applying a prescribed standard to
reach a conclusion. Id.
This standard of review is to maintain the integrity
of the decision-making bodies in administrative
agencies. See Dietz, 487 N.W.2d at 239. Further,
Minnesota law requires the exhaustion of

App. 50
administrative remedies prior to judicial review for the
same reason. Id. Plaintiff’s characterization of the
claim does not impact jurisdictional analysis; instead,
courts look at whether an inquiry into the claim
asserted by Plaintiff implicates the administrative
body’s decision. Williams v. Bd. of Regents of the Univ.
of Minn., 763 N.W.2d 646, 652 (Minn. Ct. App. 2009)
(citing Grundtner v. Univ. of Minn., 730 N.W.2d 323,
332 (Minn. Ct. App. 2007)). Calling these claims by
their rightful legal names does not change the fact that
they were adjudicated on a prior occasion. Or, as
William Shakespeare would put it, “What’s in a name?
That which we call a rose/ by any other name would
smell as sweet.”
Plaintiff has brought the following common law
claims against Defendants: (a) breach of contract;
(b) unjust enrichment; and (c) promissory estoppel.
Defendants use direct quotations from the hearing
panel’s decision to prove that these issues have already
been adjudicated in a quasi-judicial proceeding at
UMN. Plaintiff argues that Defendants may not use
that documentation to prove prior adjudication of the
claims. However, it is unnecessary to look at the
hearing panel and the Vice President’s findings
because Plaintiff’s Complaint ascribes the same exact
causes of action to his University complaints as are
asserted here.
Plaintiff’s Complaint includes cursory information
about what was adjudicated at the University,
including that the July 22, 2013 complaint involved an
objection that the UMN had violated its own policies
and that it had wrongfully dismissed Plaintiff from the

App. 51
program due to discrimination. See Pl. Compl. at ¶89.
The Complaint also states that the April 30, 2014
complaint included a request for a tuition refund,
damages for Defendants’ “illegal actions,” and an
apology from Dr. Johnson. See Pl. Compl. at ¶94. In
other words, Plaintiff alleged breach of contract and
promissory estoppel in the first complaint, and unjust
enrichment in the second. Further, the Complaint itself
repeats the facts that led up to the hearing panel’s
findings when providing factual bases for the common
law claims.
Therefore, it is clear to this Court that the common
law claims have already been adjudicated and settled
by the administrative proceedings of the UMN. Thus,
only a writ of certiorari is appropriate to review the
UMN’s findings. This Court has no jurisdiction to
pursue de novo review of these claims.
III.

PLAINTIFF’S STATUTORY CLAIMS AGAINST
DR. RODRIGUEZ AND DR. JOHNSON MAY BE
MERITORIOUS, WHILE HIS CLAIM AGAINST
VICE PRESIDENT JACKSON IS NOT.

Plaintiff asserts a claim for damages under 42
U.S.C. § 1983 against defendants Rodriguez, Jackson,
and Johnson for deprivation of his constitution rights
to “due process, equal educational opportunity, the
right to be free from discrimination in education, and
the right to be free from retaliation in education.”
To prevail on a § 1983 claim, Plaintiff must pierce
the doctrine of qualified immunity. Elwood v. Rice City,
423 N.W.2d 671, 676 (Minn. 1988). Because Defendants
were University of Minnesota employees during the

App. 52
time of the alleged discrimination, Minnesota and
federal law provides them with qualified or “good faith”
immunity from personal liability. Id. at 674. The
qualified immunity doctrine provides that “a public
official charged by law with duties which call for the
exercise of his judgment or discretion is not personally
liable to an individual for damages unless he is guilty
of a willful or malicious wrong.” Id. at 677 (citing Sulsa
v. State, 311 Minn. 166, 175, 247 N.W.2d 907, 912
(Minn. 1976).
To pierce this immunity, Plaintiff must prove that
the officials’ conduct (1) violated clearly established
statutory or constitutional rights, and (2) the person
reasonable knew that this conduct would violate the
law. Id. at 674-74 (citing Harlow v. Fitzgerald, 457 U.S.
800, 816-18 (1982)); see also Monroe v. Ark. State Univ.,
495 F. 3d 591, 594 (8th Cir. 2007). The official must
have violated a right that was “clearly established;”
this is defined as one whose “contours […] must be
sufficiently clear [so] that a reasonable official would
understand that what he is doing violates that right.”
Anderson v. Creighton, 483 U.S. 635, 640 (1987). In
other words, unless the official is particularly
incompetent or particularly malicious, she is exempt
from personal liability.
Here, the Court will parse out each of Plaintiff’s
claim to determine whether it withstands the doctrine
of qualified immunity:

App. 53
A. Plaintiff’s Claim that his Due Process
Rights were Violated
Due process regarding an academic dismissal is far
less stringent than due process in criminal or even civil
legal proceedings. See Bd. of Curators of Univ. of
Missouri v. Horowitz, 435 U.S. 78, 82 (1978). These
dismissals do not need to be heavily procedural. In fact,
the United States Supreme Court held in a case about
the suspension of a high school student that “the
student be given oral or written notice of the charges
against him, and, if he denies them, an explanation of
the evidence the authorities have and an opportunity
to present his side of the story.” Id. at 86 (citing Goss v.
Lopez, 419 U.S. 565, 581 (1975)). The Court opined that
an “informal give-and-take” was sufficient to give the
student “the opportunity to characterize his conduct
and put it in what he deems the proper context.” Id. at
86. The Constitution does not necessitate a formal
hearing process for a student to defend his or her
academic standing. Id. at 90.
Here, Plaintiff admits to have had his complaints
subject to administrative review, the opportunity to
present evidence and arguments at a lengthy
evidentiary hearing at the University, and review by
the Vice President of the University. He was even
represented by counsel during this process. This
procedure goes above and beyond the proscribed
constitutional procedure. Therefore, the Court finds
that the pleadings are insufficient to show a § 1983 due
process claim.

App. 54
B. Plaintiff’s Claims that his Right to Equal
Protection was Violated
In Minnesota, equal protection analyses consist of
a prima facie case, an answer, and a rebuttal, with the
burden shifting from the plaintiff to the defendant and
back. See McDonnell Douglas Corp. v. Green, 411 U.S.
792 (1973). “First, the plaintiff must present a prima
facie case of discrimination by a preponderance of the
evidence.” Sigurdson v. Isanti County, 386 N.W.2d 715,
720 (Minn. 1986) (citing Texas Department of
Community Affairs v. Burdine¸450 U.S. 248, 252-53
(1981). This means that plaintiff has to present proof of
discriminatory motive for defendant’s actions. Id. at
720 (citing International Brotherhood of Teamsters v.
United States, 431 U.S. 324, 335 (1977)). If direct
motive cannot be found, motive can be inferred by
providing evidence that: (1) Plaintiff is a member of a
protected group; (2) Plaintiff sought and qualified for
opportunities that the University was making available
to others in a similar situation; (3) Plaintiff was denied
those opportunities; and (4) after Plaintiff was denied,
the opportunities remained available or were given to
others with Plaintiff’s qualifications. Id. at 720.
Here, Plaintiff has little to show direct motive of
discrimination. In one of his allegations, he cites the
fact that he was removed from the Infusion course
because a patient complained about his “national
dialect.” It is unclear what was meant by this or what
actually happened with the patient, and it is unclear
whether Dr. Rodriguez and the other administrators
had the same reasoning for their treatment of Plaintiff.

App. 55
Therefore, the Court cannot find enough evidence of a
direct motive.
So, the Court turns to whether discrimination with
an indirect motive exists. Plaintiff is part of three
protected classes: national origin, race, and disability.
He, however, has failed to identify similarly situated
persons who received the accommodations or passing
grades that he did not receive. This is fatal to his equal
protection claim.
Plaintiff argues in his memo replying to Defendants’
motion that “Plaintiff has stated multiple facts
explaining how non-disabled and non-minority
students were treated more favorably.” However, the
Court cannot find precise descriptions as required by
law. Plaintiff makes some vague references to some
students receiving one- and two-week extensions to
finish their rotations, but provides no examples or
clarification about why those students are similarly
situated. Therefore, the Court finds that there is not a
sufficient basis for an equal protection claim.
C. First Amendment Retaliation
To state a claim of retaliation under the First
Amendment, a plaintiff must demonstrate
(1) statutorily protected speech by the plaintiff, (2) that
the defendants took an adverse actions, and (3) that
the two events are causally connected. Gee v. Minn.
State Colls. & Univs., 700 N.W.2d 548, 555 (Minn. Ct.
App. 2005).
First, in order to engage in a statutorily protected
activity, Plaintiff must have made a good faith report
that implicates a violation or suspected violation of

App. 56
federal or state law. Obst v. Microtron, Inc.¸ 614
N.W.2d 196, 200 (Minn. 2000). Here, Plaintiff made a
good faith report that his rights were violated under
MINN. STAT. §§ 363A.13 and 363A.15, as articulated in
both his complaint and in the findings of the hearing
panel of the University.
Second, Plaintiff must demonstrate that Defendants
took adverse actions against him. Defendants clearly
took adverse actions against Plaintiff. Defendant
Rodriguez, according to Plaintiff, testified against him
before the ACS and the hearing panel and removed him
from classes. Defendant Johnson allegedly gave him a
“D” grade, sent him harassing text messages, and
harassed him at his apartment. Defendant Jackson
denied his appeal to the University level and affirmed
the hearing panel’s findings. These are all clearly
adverse actions.
Third, Plaintiff must demonstrate that the speech
and the adverse action were causally connected.
Minnesota has recognized that “retaliatory motive is
difficult to prove by direct evidence and ... [a Plaintiff]
may demonstrate a causal connection by circumstantial
evidence that justifies an inference of retaliatory
motive.” Cokley v. City of Otsego, 623 N.W.2d 625, 632
(Minn. Ct. App. 2001). Such circumstantial evidence
may have close temporal proximity, but that is
typically not sufficient on its own. Freeman v. Ace
Telephone Ass’n, 404 F.Supp.2d 1127, 1141 (D. Minn.
2005).
Here, firstly, Plaintiff has not shown enough
evidence to implicate Defendant Jackson in a
retaliation claim. There is no evidence of adverse action

App. 57
except for Jackson’s decision. If the Vice President of
the University, who regularly receives academic
appeals from the various colleges, were to be found to
have retaliated against every individual whose appeal
he denies, then he would be constantly retaliating
against students for appealing the college’s decisions.
There is no evidence that he does that or, conversely,
that he has a particular reason to deny this appeal
except on its merits.
Second, Dr. Rodriguez may be found to have
retaliated against Plaintiff. According to Plaintiff’s
complaint, Dr. Rodriguez refused to accommodate him
when he asked to take a course that did not require
patient interaction. His request to be accommodated
was a protected action. She enrolled him for Medication
History instead. When he had an altercation with a
patient, she removed him from the course and he was
given an “F” grade instead of an “I” grade. When he
attempted to get off academic probation, she enrolled
him in the wrong class, thus foiling his chances of
getting off academic probation.
Dr. Rodriguez also threatened to dismiss Plaintiff
from the program by referring him back to ACS when
he complained about discriminatory treatment by Dr.
Johnson. Further, when the ACS reviewed Plaintiff’s
case, Dr. Rodriguez attended the hearing and stayed
for the deliberation of the board. Finally, she allegedly
“lied” in the Pharmacy School hearing regarding how
she directed Plaintiff and what information she gave to
him. If Dr. Rodriguez did, in fact, conduct herself in the
way outlined here, then it is quite possible that she was
retaliating against Plaintiff. If this is the case, then she

App. 58
was acting maliciously, which pierces her qualified
immunity.
Third and finally, Dr. Johnson may be found to have
retaliated against Plaintiff as well. When Plaintiff took
his Acute Care I course, Dr. Johnson allegedly
humiliated Plaintiff regarding his grades before
another student and accused him of cheating in a
humiliating and derogatory way. Plaintiff then
complained to UMN, going over Dr. Rodriguez’s head.
Soon after, Dr. Johnson gave Plaintiff a “D” grade in
his course (which precipitated his dismissal). He also
allegedly harassed Plaintiff via text message and by
showing up at Plaintiff’s home, telling him that he
should move out of his apartment.
Based on these allegations, there may be some
evidence that Dr. Johnson retaliated against Plaintiff
because Plaintiff complained about him and asked to be
removed from his class after Dr. Johnson humiliated
him. Afterward, he gave him a grade that would result
in his dismissal from the program and also harassed
him. It is clear that harassing a student and retaliating
against his complaint about discrimination are
malicious actions and would allow not qualify Dr.
Johnson to immunity under § 1983.
Therefore, Dr. Johnson and Dr. Rodriguez may not
be immune from liability based on the standard for a
motion to dismiss, which takes facts in the light most
favorable to the Complaint.
CONCLUSION
Plaintiff has already adjudicated his breach of
contract, unjust enrichment, and promissory estoppel

App. 59
claims. He exhausted the administrative remedies
available to him for those claims and should have
appealed it to the Court of Appeals in a timely way. He
may not come to District Court now to have the same
claims adjudicated de novo. His non-statutory claims
shall be dismissed.
Plaintiff’s § 1983 claim may only continue against
Dr. Rodriguez and Dr. Johnson for their alleged
retaliation against Plaintiff. Vice President Jackson’s
qualified immunity bars any § 1983 claim against him
because there is no evidence to show that his action
was malicious or out of the purview of his work as Vice
President.
ORDER
Based on the applicable facts, law, and analysis, the
Court hereby ORDERS that:
1. Defendant’s motion to dismiss is GRANTED in
part and DENIED in part.
a. The only remaining claims in this matter are
the § 1983 claims against Defendants
Rodriguez, Johnson, and Regents of the
University of Minnesota.
IT IS SO ORDERED.
BY THE COURT
/s/
Browne, Michael
Judge of District Court
Feb 17 2017 8:51 PM

